No. 19-718
IN THE SUPREME COURT OF THE UNITED STATES
_________________
JAMES KING, PETITIONER
v.
DOUGLAS BROWNBACK, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE CROSS-RESPONDENTS IN OPPOSITION, via email and first-class
mail, postage prepaid, this 11TH day of February, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3494 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on February 11, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 11, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0718
KING, JAMES
DOUGLAS BROWNBACK, ET AL.

ANYA BIDWELL
INSTITUTE FOR JUSTICE
816 CONGRESS AVENUE
SUITE 960
AUSTIN, TX 78701
512-480-5936
ABIDWELL@IJ.ORG
PATRICK JAICOMO
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
PJAICOMO@IJ.ORG
D. ANDREW PORTINGA
MILLER JOHNSON
45 OTTAWA AVENUE SW
SUITE 1100
GRAND RAPIDS, MI 49503
703-682-9320
PORTINGAA@MILLERJOHNSON.COM

